APPENDIX
Appellate Court Opinion
In the Supreme Court of the State of South
Dakota
#28524 2019 SD 46
SALTER, Justice
Hfl.] Dr. Zhi Gang Zhang, proceeding pro se,
commenced this legal malpractice action against his
former attorneys who were, themselves, engaged to
prosecute a legal malpractice claim against Zhang’s
former divorce attorney. The circuit court granted one
attorney’s motion to dismiss for lack of personal
jurisdiction and granted summary judgment in favor of
all the former attorneys. Zhang appeals, arguing the
circuit court erred when it granted the motion to dismiss
and the summary judgment motions. Zhang further
claims the court abused its discretion when it denied his
request to amend his complaint and required him to
seek court approval to use an interpreter. We reverse
Apn. 64

the circuit court’s order dismissing the complaint for
lack of personal jurisdiction and affirm the court’s
determinations of the remaining issues.
Background
[T|2.] Zhang is a physician who practices in
Aberdeen. In September 2009, he retained Jodi Brown
to commence a divorce action against his then-spouse.
The parties were able to resolve the issues related to
their divorce by agreement, with the exception of
spousal support. The circuit court judge presiding over
the divorce action conducted a court trial, and after
reviewing the well-established alimony factors, awarded
Zhang’s ex-wife permanent spousal support in the
amount of $7,500 per month. Zhang did not appeal the
court’s order, but he viewed the result as adverse.
H|3.] In 2012, Zhang contacted attorney Tim
James to explore a legal malpractice claim against
Brown. Since James did not practice family law, he
asked an experienced family law attorney for assistance
Apn. 65

with reviewing Zhang’s divorce proceedings. Based upon
the review, she advised Janies that she did not believe a
malpractice action against Brown would be successful.
James relayed the assessment to Zhang and advised
that he would not pursue a legal malpractice claim
against Brown. James also explained, however, that
Zhang was free to obtain another opinion from a
different attorney.
fl|4.] Zhang was interested in a second opinion,
and James referred him to Minneapolis attorney Dan
Rasmus. Zhang retained Rasmus, who was admitted pro
hoc vice on July 9, 2013, with James serving as local
counsel. Rasmus commenced a malpractice suit against
Brown, and the case was eventually assigned to Retired
Circuit Judge Gene Paul Kean.
ffl5.] For reasons not relevant to this appeal,
Rasmus and James sought Judge Kean’s recusal from
the case. They were not successful, however, and told
Zhang it was in his interest to have a different law firm
Apn. 66

represent him. Zhang agreed and retained William R.
Skolnick and Amy Joyce of the law firm Skolnick &
Shiff, P. A. (Skolnick), also of Minneapolis. Zhang and
Skolnick signed a retainer agreement that specifically
acknowledged the pendency of the South Dakota
malpractice action against Brown. In fact, Skolnick
contacted the court and opposing counsel in South
Dakota several times to advise of its representation and
to reschedule a hearing. The court eventually allowed
Rasmus and James to withdraw.
[If 6.] Skolnick later reviewed the file in greater
detail and told Zhang that the firm did not find any
evidence that Brown had committed malpractice.
Skolnick advised Zhang to dismiss the lawsuit since
Brown had moved for sanctions, and he could be found
responsible for Brown’s attorney fees if she prevailed.
Skolnick advised the court in an email that it would not
be representing Zhang, citing an inability to arrange for
local counsel. Zhang voluntarily dismissed his
Apn. 67

malpractice lawsuit against Brown on October 31, 2013.
Hf7.] Acting pro se, Zhang then commenced the
present action against James, Rasmus, and Skolnick
(Appellees), alleging malpractice based upon their
collective work on the Brown malpractice claim. Zhang
specifically alleged breach of contract, negligence
“incompetent legal representation,” and legal
malpractice against the Appellees. In its answer,
Skolnick affirmatively asserted that the circuit court
lacked personal jurisdiction over it and that Zhang had
failed to commence the lawsuit within the statute of
limitations.
[1f8.]

Zhang captioned his complaint as

“Complaint and Jury & Interpreter Demand,” but the
contents of the complaint did not contain a demand for a
jury trial or an interpreter.1 Zhang moved to continue a
May 2017 hearing until October 6, 2017, stating he had

Zhang speaks English as his second language. His first
language is Mandarin Chinese.

Apn. 68

previously filed a request for an interpreter and had
tried to work with the court and the opposing parties to
get an interpreter. In his amended notice of hearing,
Zhang noted that he had not yet resolved the interpreter
issue.
H|9.] On May 23, 2017, Zhang sent a letter to the
circuit court requesting approval of Minnesota
interpreter Dongfu Zhou, indicating the court
administrator had not approved his request for an
interpreter for the May 2017 hearing. The court
addressed Zhang’s interpreter concerns at the May
hearing and explained that it is a party’s responsibility
in a civil case to arrange for an interpreter and to seek
the court’s approval. The court instructed Zhang to file a
motion to allow the court to assess the interpreter’s
qualifications.
[^f 10.] Zhang moved for an order approving Zhou
to act as his interpreter, and the court granted the
motion during the October 6, 2017 hearing. Zhou,
Apn. 69

however, was not present, and Zhang expressed
disappointment that he was not able to utilize an
interpreter immediately at that hearing. The court
advised that a hearing was necessary to consider
Zhang’s motion, and the interpreter could be used
during subsequent hearings. Zhou was, in fact, present
at the next motions hearing.
[til.] The circuit court’s scheduling order
required Zhang to disclose his experts by October 2,
2017. Zhang filed an affidavit on the deadline, in which
he stated he had "enough written evidence to prove his
case[.]” He further stated that the facts and "evidence to
be presented at trial will show the acts and omissions so
clearly that a layman could reasonably conclude that
they were negligent without the aid of expert
testimony.”
[^J12.] Zhang also moved to amend and
supplement his complaint to add claims for “malice,”
breach of fiduciary duty, deceit and fraud, withholding

Apn. 70

trust funds, and “continued malice.” The court denied
Zhang’s motion, stating the matter was "significantly
along,” and finding Zhang did not explain why he was
unable to make these claims in the original complaint.
[113.] Skolnick moved to dismiss Zhang’s
malpractice claim, arguing the circuit court lacked
personal jurisdiction. See SDCL 15-6-12(b).
Alternatively, Skolnick moved for summary judgment,
alleging Zhang’s lawsuit was time-barred and also that
there was insufficient evidence to support a legal
malpractice claim against Brown. The court granted
Skolnick’s motion to dismiss, finding it lacked personal
jurisdiction due to insufficient minimum contacts in
South Dakota. The court did not initially address
Skolnick’s alternative motion for summary judgment.
[114.] Zhang moved to reconsider Skolnick’s
dismissal. In its brief in opposition, Skolnick asked the
court to grant its prior summary judgment motion if the
court now found it had personal jurisdiction. Skolnick

Apn. 71

also joined Rasmus’ separate summary judgment motion
based upon Zhang’s failure to disclose an expert witness.
The court denied Zhang’s motion for reconsideration and
alternatively granted Skolnick’s motion for summary
judgment based on statute of limitations and the
absence of a legal duty. The court also granted summary
judgment to Skolnick and Rasmus due to Zhang’s failure
to disclose an expert witness, concluding it was fatal to
his malpractice claim.
H|15.] James moved for summary judgment as
well, claiming the transfer of representation to Skolnick
removed any duty he owed to Zhang. The circuit court
agreed and granted James summary judgment.
[f 16.] Zhang appeals several issues from the
circuit court, which we restate as follows:
1.

Whether the court erred when it granted

Skolnick’s motion to dismiss for lack of personal
jurisdiction.
2.

Whether the circuit court erred when it
Apn. 72

granted summary judgment in favor of the Appellees.
3.

Whether the circuit court abused its

discretion when it denied Zhang’s motion to amend his
complaint.
4.

Whether the circuit court abused its

discretion by requiring Zhang to seek court approval of
his interpreter.
Analysis
Skolnick’s Motion to Dismiss for Lack of
Personal Jurisdiction
[1(17.] A motion to dismiss under SDCL 15-612(b)(2) “is a challenge to the court’s jurisdiction over
the person and is a question of law that we review de
novo.” Kustom Cycles, Inc. v. Bowyer, 2014 S.D. 87, K 8,
857 N.W.2d 401, 405. Where, as here, a circuit court
determines a motion to dismiss on the strength of the
written submissions and without conducting an
evidentiary hearing, we review that court’s decision “in
the light most favorable to the nonmoving party” and

Apn. 73

without according any deference to the court’s factual
findings. Daktronics, Inc. v. LEW Tech. Co., 2007 S.D.
80,1 3, 737 N.W.2d 413, 416 (quoting Stanton u. St. Jude
Med., Inc., 340 F.3d 690, 693 (8th Cir. 2003)).
H[18.] South Dakota courts must consider two
questions to determine whether they possess "personal
jurisdiction over a nonresident defendant.” Kustom
Cycles, 2014 S.D. 87, f 9, 857 N.W.2d at 406. “The first
inquiry is whether the legislature granted the court
jurisdiction pursuant to South Dakota’s Long Arm
Statute ...” Id. (quoting Daktronics, 2007 S.D. 80, H
4,737 N.W.2d at 416); see also SDCL 15-7-2 (South
Dakota’s long-arm statute). “Second, the assertion of
jurisdiction must ‘comport with federal due process
requirements.’” Id. (quoting Daktronics, 2007 S.D. 80, H
4, 737 N.W.2d at 416).
[1jl9.] Our long-arm statute includes, among its
subsections, the following bases for the assertion of
personal jurisdiction:
Apn. 74

(I)
state; ...

The transaction of any business within the

(5) Entering into a contract for services to be
rendered... in this state by such person;...
(11)
Commencing or participating in
negotiations, mediation, arbitration, or litigation
involving subject matter located in whole or in part
within the state [.]
SDCL 15-7-2.
[f 20.] Without question, Skolnick’s
representation of Zhang implicated some or all of these
individual bases. However, before determining whether
Skolnick’s conduct could support the assertion of
personal jurisdiction, due process requires a showing
that a non-resident defendant had minimum contacts
with South Dakota so that the assertion of personal
jurisdiction “does not offend ‘traditional notions of fair
play and substantial justice.’” Id. | 10, 857 N.W.2d at
406 (quoting Inti, Shoe Co. v. Wash., Office of Unemp’t.
Comp. & Placement, 326 U.S. 310, 316, 66 S. Ct.154,
158, 90 L. Ed. 95 (1945)). Drawing from well-established
principles developed by the United States Supreme
Apn. 75

Court, we have explained the limits of due process in the
following terms:
There must also be some act by which the
defendant purposefully availed himself of the
privilege of conducting activities within the
forum, thereby invoking the benefits and
protections of its laws. This ‘purposeful availment’
requirement ensures that a defendant will not be
haled into a court of the forum solely as a result of
‘random,’ ‘fortuitous,’ or ‘attenuated’ contacts ....
Moreover, the defendant’s conduct and connection
with the forum must be such that he could
reasonably anticipate being haled into a forum
court.
Marschke v. Wratislaw, 2007 S.D. 125, 1 14, 743 N.W.2d
402, 406 (internal quotations and citations omitted).
[121.] From these guiding principles, we have
developed a three-part test to assist courts in
determining whether a non-resident defendant’s actions
provide sufficient minimum contacts to support the
constitutional assertion of personal jurisdiction:
First, the defendant must purposefully avail
himself of the privilege of acting in the forum
state, thus invoking the benefits and protections
of its laws. Second, the cause of action must arise
from [the] defendant's activities directed at the
forum state. Finally, the acts of [the] defendant
must have substantial connection with the forum
Apn. 76

state to make the exercise of jurisdiction over
[the] defendant a reasonable one.
Marschke, 2007 S.D. 125, ^ 15, 743 N.W.2d at 407
(quoting Daktronics, 2007 S.D. 80 f 6, 737 N.W.2d at
417) (interpreting the due process requirements
discussed in Inti. Shoe Co., 326 U.S. at 316, 66 S. Ct. at
158, Burger King Corp. v. Rudzewicz, 471 U.S. 462,
475,105 S. Ct. 2174, 2183, 85 L. Ed. 2d 528 (1985), and
Worldr-Wide Volkswagen Corp. v. Woodson, 444 U.S.
286, 297,100 S. Ct. 559, 567, 62 L. Ed. 2d 490 (1980)).
[1f22.] Here, Skolnick entered into a retainer
agreement with a South Dakota resident that
contemplated its representation in a pending South
Dakota civil action. The agreement stated, among other
things:
You have hired the Firm to give you legal advice,
counsel and assistance in connection with your
malpractice claim against Jodi L. Brown and the
Brown Law Firm, P.C. venued in Minnehaha
County, South Dakota. More specifically, you
have hired the Firm to advise you of your legal
claims and defenses, to devise and implement a
strategy for negotiating a settlement of those
claims and defenses and to represent you in the
Apn. 77

lawsuit concerning those claims and defenses.
H123.] Though not licensed to practice law in
South Dakota, Skolnick attorneys intended to obtain pro
hoc vice admission and appear on Zhang’s behalf in a
South Dakota courtroom. In fact, Skolnick rendered
legal advice to Zhang concerning Brown’s motion for
sanctions in the South Dakota action. Although perhaps
not appearing as counsel of record at a court
appearance, Skolnick effectively participated in the
Brown malpractice litigation by advising Zhang and by
contacting the South Dakota court by e-mail.
[^24.] Under the circumstances, we believe
Skolnick’s “conduct and connection with [South Dakota
were] such that [it] could reasonably anticipate being
haled into a [South Dakota] court.” Marschke, 2007 S.D.
125, If 14, 743 N.W.2d at 406. Skolnick’s actions during
its representation of Zhang were purposeful,
indisputably directed at South Dakota, and closely
related to the reasons for which Zhang seeks personal

Apn. 78

jurisdiction.2 Therefore, the circuit court erred when it
determined it did not have personal jurisdiction over
Skolnick. In order to prevail on appeal, however, Zhang
must further demonstrate that the court also erred
when it granted Skolnick’s alternative motion for
summary judgment as well as the summary judgment
motions of the other Appellees.
Appellees’ Motions for Summary Judgment
[f 25.] We review a court’s decision to grant a
motion for summary judgment de novo. Harvieux v.
Progressive N. Ins. Co., 2018 S.D. 52, If 9, 915 N.W.2d
697, 700. Our review requires us to determine
whether the moving party demonstrated the
absence of any genuine issue of material fact and
2 We recognize that the existence of a contract between the
plaintiff and a non-resident defendant does not automatically
provide sufficient contacts for assertion of personal jurisdiction.
Marschke, 2007 S.D. 125, | 16, 743 N.W.2d at 407 (“The Court long
ago rejected the notion that personal jurisdiction might turn on
‘mechanical’ tests”[.] (quoting Burger King, 471 U.S. at 479, 105 S.
Ct. at 2185))

Apn. 79

showed entitlement to judgment on the merits as
a matter of law. The evidence must be viewed
most favorably to the nonmoving party and
reasonable doubts should be resolved against the
moving party. The nonmoving party, however,
must present specific facts showing that a
genuine, material issue for trial exists. Our task
on appeal is to determine only whether a genuine
issue of material fact exists and whether the law
was correctly applied. If there exists any basis
which supports the ruling of the trial court,
affirmance of a summary judgment is proper.
Hamilton u. Sommers, 2014 S.D. 76, ^ 17, 855 N.W.2d
855, 861 (quoting De Smet Farm Mut. Co. of S.D. v.
Busskohl, 2013 S.D. 52, f 11, 834 N.W.2d 826, 831); see
also Cooper v. Brownell, 2019 S.D. 10, Iff 15-16, 923
N.W.2d 821, 825 (per curiam) (determining that the
plaintiff could not “rest upon the mere allegations’ in his
pleadings” and needed expert testimony to resist
summary judgment).
[1 26.] A unifying feature for all summary
judgment theories advanced by the Appellees is the
sustainability of Zhang’s underlying malpractice claim
against Brown. In order to advance his current
malpractice claims against the Appellees, Zhang must
Apn. 80

establish a colorable claim of negligence against Brown.
The undisputed material facts contained in the record
establish, however, that he is unable to make this
predicate showing.3
[127.] In order to prevail in a legal malpractice
claim, “a plaintiff must prove: (1) the existence of an
attorney-client relationship giving rise to a duty; (2) the
attorney, either by an act or failure to act, breached that
duty; (3) the attorney’s breach of duty proximately
caused injury to the client; and (4) the client sustained

3 The circuit court relied upon different bases to support its
decisions to grant the Appellees’ individual summary judgment
motions. We believe it is unnecessary to address each of these bases
because Zhang’s failure to obtain an expert witness is endemic and
renders his malpractice claim infirm as to all the Appellees. See
Zochert v. Protective Life Ins. Co., 2018 S.D. 84,1 41 n.5, 921
N.W.2d 479, 491 n.5 (“[W]e can affirm the court for any basis which
supports the court’s ultimate determination.” (citing BAC Home
Loans Servicing, LP v. Trancynger, 2014 S.D. 22, ^|8, 847 N.W.2d
137, 140))

Apn. 81

actual damage.” Peterson v. Issenhuth, 2014 S.D. 1, ^ 17,
842 N.W.2d, 351, 355 (quoting Chem-Age Indus., Inc. v.
Glover, 2002 S.D. 122, If 24, 652 N.W.2d 756, 767). In
addition, “the plaintiff can recover against the
defendant-attorney only when it can be shown that the
injury would not have occurred ‘but for’ the negligence of
the lawyer.” Hamilton, 2014 S.D. 76, f 39,855 N.W.2d at
867 (quoting Weiss v. Van Norman, 1997 S.D. 40, If 12,
562 N.W.2d 113,116). Therefore, the plaintiff must
essentially prove a “case within a case” by showing “that
the underlying claim was valid [and] would have
resulted in a favorable judgment had it not been for the
attorney’s error[.]” Haberer v. Rice, 511 N.W.2d 279, 285
(S.D. 1994).
[128.] The standard of care that an attorney
should exercise is the skill and knowledge ordinarily
possessed by an attorney. Hamilton, 2014 S.D. 76, 1 23,
855 N.W.2d at 862. To determine the standard of care in
a legal malpractice action, it is most often necessary to

Apn. 82

have an expert witness explain how the attorney’s
actions fell below the standard of care. As we explained
in Lenius v. King:
In a malpractice action the jury decides, from
evidence presented at trial by other lawyers
called as expert witnesses, whether a lawyer
possessed and used the knowledge, skill, and care
which the law demands of him. The opinions and
testimony of such experts are indispensable in
determining questions which are unfamiliar to
ordinary witnesses ....
294 N.W.2d 912, 914 (S.D. 1980).
H|29.] There are, of course, certain legal
malpractice actions where the question relating to an
attorney’s negligence is so clear that no expert is
required, such as an allegation that the attorney failed
to file an action within a clearly- established statute of
limitation. Id. However, more complex legal malpractice
cases require expert testimony to “establish the
parameters of acceptable professional conduct...
[because] a jury cannot rationally apply negligence
principles to professional conduct absent evidence of
what the competent lawyer would have done under
Apn. 83

similar circumstances, and [cannot]... speculate about
what the ‘professional custom’ may be.” Id. (quoting
Hughes v. Malone, 247 S.E.2d 107, 111 (Ga. Ct. App.
1978)).
[f 30.] Here, as in Lenius, Zhang’s allegations do
not correspond to incontrovertible professional
standards, and the circuit court did not err when it
concluded an expert would be necessary to assist the
jury in determining the issues of negligence. This is
particularly true since Zhang offers little more than an
ipso facto argument focused upon a determined effort to
relitigate the merits of his divorce case. This
dissatisfaction, however, proves only the existence of an
adverse result that Zhang did not appeal, and it would
not assist a jury in determining the applicable
professional standards in his legal malpractice claim.
ffl31.] In this regard, Zhang has not pointed to
any evidence in the record to support a claim of
professional negligence against Brown. Outside of
Apn. 84

Zhang’s own conclusory allegations, neither James,
Skolnick, nor a consulting legal expert have found
support for his claims that Brown committed
malpractice.4 See U.S. Bank Natl Ass’n v. Scott, 2003
S.D. 149, If 39, 673 N.W.2d 646, 657 (“[Sfummary
judgment is proper when the party opposing provides
only conclusory statements and fails to present specific
facts showing that a genuine issue exists for trial.”).
Simply put, there is no evidence to create a triable claim
that Brown committed malpractice and, by extension, no

4 In his brief to this Court, Rasmus argues that Zhang’s
failure to identify an expert witness is fatal to his current
malpractice clam because:
Zhang had to prove that Appellees committed malpractice
and Jodi Brown committed malpractice and Zhang would
have a different result at his divorce but for all of that
malpractice. There is no way that a jury could have
determined, without the aid of an expert, whether or not
there was malpractice or whether there were damages
proximately cause by that malpractice.

Apn. 85

evidence that Zhang received unsound advice about the
validity of his malpractice claim against Brown from
James, Rasmus, and Skolnick.
ffl32.] The Brown malpractice claim is a necessary
and subsidiary component of what may be fairly
described as a case, within a case, within a case. There
may well be disputed facts associated with Zhang’s
divorce in the sense that he disagrees with the
testimony provided by certain expert witnesses, or
statements of his ex- wife’s attorney, or even the
determination of the facts by the court. However, none
of these disputes are material to his malpractice claims
in the absence of any evidence that Brown acted
negligently. Based upon our review of this record and
drawing every permissible inference in Zhang’s favor,
we see only his dissatisfaction with the outcome of his
divorce trial—not evidence of malpractice.
Zhang’s Motion to Amend his Complaint
flf 33.]The circuit court’s denial of a party’s
Apn. 86

request to amend the pleadings is reviewed under an
abuse of discretion standard. McDowell v. Citicorp, Inc.,
2008
S.D. 50, If 7, 752 N.W.2d 209, 212. An abuse of
discretion is “a fundamental error of judgment, a choice
outside the reasonable range of permissible choices, a
decision, which, on full consideration is arbitrary or
unreasonable.” Wald, Inc. v. Stanley, 2005 S.D. 112, If 8,
706 N.W.2d 626, 629 (quoting Arneson v. Arneson, 2003
S.D. 125,f 14, 670 N.W.2d 904, 910).
[*(134.] A party’s ability to amend the pleadings is
governed by SDCL 15-6-15(a), which provides in
relevant part as follows:
A party may amend his pleading once as a matter
of course at any time before a responsive pleading
is served.... Otherwise, a party may amend his
pleading only by leave of court or by written
consent of the adverse party; and leave shall be
freely given when justice so requires.
[Tf35.] Here, Zhang moved to amend his complaint
to add the claims of “malice,” breach of fiduciary duty,
deceit and fraud, withholding trust funds, and
Apn. 87

“continued malice” in the current legal proceeding. The
motion came over ten months after he commenced this
action. The court denied Zhang’s motion to amend,
stating the case was “too far along” and Zhang could
have brought these claims when he filed his complaint
initially.
[^f36.] Even without reviewing the court’s exercise
of discretion, we conclude that Zhang cannot prevail on
this issue because he cannot demonstrate prejudice
resulting from the denial of his motion to amend his
complaint. Though he included several additional claims
in his proposed amended complaint, Zhang challenges
only the inability to add a fraud claim on appeal. His
proposed fraud claim alleges Skolnick fraudulently
withheld information about whether it was subject to
South Dakota jurisdiction. Zhang made the claim after
Skolnick’s effort to avoid the court’s jurisdiction,
perhaps believing he could invoke the longer statute of
limitations for fraud claims instead of the shorter time
Apn. 88

allowed for legal malpractice actions under SDCL 15-214.2. Regardless, given our determination that Skolnick
was subject to the court’s jurisdiction, we now know that
Zhang could not have detrimentally relied on any
allegedly fraudulent omissions by Skolnick.5 See Estate
of Johnson ex rel. Johnson v. Weber, 2017 S.D. 36, U 32,
898 N.W.2d 718, 731 (plaintiff could not prevail in her
fraud claim without demonstrating reliance upon a
misrepresentation).
Zhang’s Interpreter Request
[^|37.] While we have acknowledged that pro se
pleadings are held to “less stringent standards,” selfrepresented litigants are otherwise held to the same
standard as attorneys, including the obligations to
comply with rules of procedure and evidence. Peck v.

5 Also, because the circuit court’s decision to grant the
Appellees’ motions for summary judgment is supported by another
independent basis, it is unnecessary to consider whether Zhang’s
action was time-barred

Apn. 89

S.D. Penitentiary Emps., 332 N.W.2d 714, 716 (S.D.
1983). Indeed, we have held that “[a]n unrepresented
party ‘can claim no advantage from his pro se status.”’
Webb v. Webb, 2012 S.D. 41, f 14, 814 N.W.2d 818, 823
(per curiam) (quoting Ferebee v. Hobart, 2009 S.D. 102,
27, 776 N.W.2d 58, 65 (per curiam)). In this regard,
our procedural and evidentiary rules, like the
substantive requirements of the law, apply universally
to all parties, regardless of whether they are
represented.
[^[38.] Here, Zhang claims the circuit court
improperly interfered with his ability to present his case
against the Appellees by preventing him from
immediately obtaining the assistance of an interpreter.
We disagree.
[1f39.] Our review of the record fails to support
the suggestion that the court treated Zhang
exceptionally and, instead, establishes that the court
thoroughly explained the rationale behind the process of
Apn. 90

obtaining an interpreter in a civil case. In this regard,
we can discern no fault with the court’s inclination to
conduct a hearing to ensure that the interpreter was
competent and independent. See SDCL 19-3-7
(interpreter for witnesses unable to communicate in
English must be disinterested). The circuit court did
require Zhang to seek approval of his proposed
interpreter through a formal motion, but utilizing
motion practice for this purpose is consistent with the
rules of civil procedure and standard trial practice. Any
delay in obtaining approval for the interpreter’s
assistance is attributable to Zhang, not the court.
[|40.] Beyond this, we are unable to perceive any
prejudice occasioned by the circuit court’s method for
approving Zhang’s interpreter. In this regard, there is
no indication that the interpreter’s presence at any of
the hearings would have changed the court’s rulings.
The court’s general practice at these hearings was to
issue rulings from the bench based upon its review of

Apn. 91

the pre-hearing submissions with little or no oral
argument.
Conclusion
[If41.] Although the circuit court erred when it
dismissed Skolnick based on lack of personal
jurisdiction, it correctly granted summary judgment, on
alternative grounds, to Skolnick and the other
Appellees. Zhang has not established a submissible case
of legal malpractice for either the Brown divorce action
or this case because he lacks critical expert testimony.
The circuit court’s decision to deny Zhang’s motion to
amend his complaint to include a fraud claim cannot
serve as a basis for reversal since it was based upon
Skolnick’s jurisdictional claim, which we have rejected.
In addition, the circuit court did not err by requiring
Zhang to follow its procedure to obtain court approval of
his proposed interpreter. Zhang eventually prevailed in
his effort to obtain an interpreter and is responsible for
any delay which, in any event, did not prejudice him. We

Apn. 92

reverse in part, and affirm in part.
[142.] GILBERTSON, Chief Justice, and KERN
and JENSEN, Justices, concur.
By the Court:
David Gilbertson, Chief Justice
ATTEST:
Shirley A Jameson-Fergel, Clerk of the Supreme
Court

Apn. 93

Order Denying Petition for Rehearing# 28524
In the Supreme Court of the
State of South Dakota
Filed Sep - 4 2019
A petition for rehearing in the above cause having
been filed August 13, 2019, and no issue or question of
law or fact appearing to have been overlooked or
misapprehended, and more than fifteen days having
elapsed therefrom and no written statement having
been filed with the Clerk of this Court by a majority of
the Justices requesting a rehearing, now, therefore, in
accordance with the Rehearing Procedure Rule of this
Court, the petition for rehearing is denied.
DATED at Pierre, South Dakota, this 4th day of
September, 2019.
By the Court: David Gilbertson, Chief Justice
ATTEST:
Shirley A Jameson-Fergel, Clerk of the Supreme
Court
Apn. 94

Relevant Fifth Judicial Court Judgments
1. Dismissal of Motion to Amend Complaint
Judge Myren issued an Order Addressing
Plaintiffs Motions, dismissed Zhang’s Motion to Leave to
Amend Complaint and Motion for Punitive Damage
Consideration along with other motions, signed on
October 31, 2017, filed on November 1, 2017, and the
Notice of Entry Filed on November 2, 2017.
2. Order Granting James’ Motion
Judge Myren issued an Order Granting
Defendants Tim James and James Law PC’s
(collectively, “James”) Motion to Dismiss on November
13, 2017. Defendants James filed the Notice of Entry of
Order on November 14, 2017.
3. Order Granting Rasmus’ Summary
Judgment Motion
Judge Myren issued an Order Granting
Defendants Dan Rasmus and Ramus Law Office, LLC’s
(collectively, “Rasmus”) Motion for Summary Judgment

Apn. 95

on January 11, 2018. Defendants Rasmus filed the
Notice of Entry of Order on January 11, 2018.
4. Order Granting Skolnick’s Summary
Judgment Motion
Judge Myren issued an Order Granting
Defendants Skolnick’s Motion for Summary Judgment
on January 18, 2018. Defendants Skolnick filed the
Notice of Entry of Order on January 19, 2018.
5. Memorandum Decision

[For James]

A hearing was held on October 6, 2017. Defendant
Tim James’ Motion for Summary Judgment was taken
under advisement. This memo constitutes the Court’s
ruling on that issue.
STATEMENT OF FACTS
In 2009, Jodi Brown represented Plaintiff Zhi
Gang Zhang in a divorce proceeding. Defendants Tim
James and James Law, PC’s Statement of Undisputed
Material Facts *f[^[l-2 (hereinafter “Defendants’
Statement of Undisputed Material Facts”). After the
Apn. 96

divorce was granted, the court awarded alimony to
Plaintiffs former wife. Id. f 13. Plaintiff Zhang met with
Defendant James “to discuss a legal malpractice claim
against Brown.” Id.

25. “James agreed to look at the

material provided by Plaintiff.” Id. “James explained to
Plaintiff that he would consult with another attorney
who specialized in family law.” Id.
After reviewing the file, Wanda Howey-Fox (the
attorney James had approached) told James that there
was no claim for legal malpractice under the facts
presented in Mr. Zhang’s case. Id. If 26. It was her
opinion that a malpractice action would not be a success.
Id. U 27.
This finding was based on her “knowledge,
education, training and more than twenty-five (25) years
of experience in handling domestic relations matters ...”
Id. James forwarded Howey- Fox’s report to Zhang,
noting the findings while also explaining there might be
another attorney in Minneapolis that could they could
Apn. 97

approach. Id. 28-30. However, James also cautioned
Zhang that based on his experience and Miss. Howey
Fox’s report, he did “not see a malpractice case here.” Id.
1f 31. In furtherance of that cautionary warning, James
also stated that he would not be willing to represent
Plaintiff and “would only act in a local counsel capacity
to facilitate an out of state lawyer [sic] should they
believe your case has merit.” Id. 1 32.
On May 2,2013, Zhang retained Rasmus to
represent him in seeking a legal malpractice claim
against Brown. Id. *f 34. Communications between the
parties and the original filing with the court both
demonstrate Zhang understood that James’
representation of him was limited to a role as local
counsel. Id. H 33. The retainer with Rasmus also noted
that James was to serve as local counsel. Id.

35.

On September 14, 2013, Zhang confirmed, in
writing, that it was okay for James and Rasmus to no
longer represent him. Id. If42. On September 16,2013,
Apn. 98

Zhang was electronically introduced to the Skolnick &
Schiff Law Firm. Id. f 43. On September 18, 2013,
Zhang retained William Skolnick to represent him in his
legal malpractice action. Id.^j 45. The case against
Brown was eventually dismissed by the Zhang. Id.^ft 5152. Zhang filed the Complaint in this case on October
14,2016. Id. f 54.
ANALYSIS
Zhang claims that James committed legal
malpractice. In an legal malpractice claim, the Plaintiff
must prove: “(1) the existence of an attorney-client
relationship giving rise to a duty; (2) the attorney, either
by an act or failure to act, breached that duty; (3) the
attorney’s breach of duty proximately caused injury to
the client; and (4) the client sustained actual damage.”
Peterson v. Issenhuth, 842 N.W.2d 351, 355 (S.D. 2014).
Summary judgment is only appropriate when
there are no genuine issues of material fact. SDCL § 156-56(c). “All reasonable inferences drawn from facts
Apn. 99

must be viewed in favor of the nonmoving party.” 1999
S.D. 28 U 12, 590 N.W.2d 243,247.
It is undisputed that James limited the scope of
his representation of Zhang. See Rules of Prof. Conduct,
Rule 1.2(c). An attorney may properly limit the scope of
his reputation where the limitation is reasonable under
the circumstances and the client gives informed consent.
Id Informed consent is “the agreement by a person to a
proposed course of conduct after the lawyer has
communicated adequate information and explanation
about the material risks of and reasonably available
alternatives to the proposed course of conduct. Rules of
Prof. Conduct, Rule 1.0(e). James had a duty to provide
appropriate legal representation within the constraints
of the scope of the limited representation he and Zhang
had agreed that he should provide.
This limited representation was understandable
under the circumstances because of the James’ lack of
familiarity with the subject matter. James retained a

Apn. 100

family law expert in Howey- Fox to provide her
specialized opinion on the merits of the facts.
Defendants’ Statement of Undisputed Material Facts 1)
25. Despite Howey-Fox’s opinion that the case lacked
merits, Zhang hired James as local counsel when
Minnesota counsel agreed to conduct the legal
malpractice action. Id.^Hf 27, 30-36. James assisted
Zhang’s out-of-state counsel by acting as local counsel
during the course of representation. Id. If If35-36. That
representation concluded on September 18,2013, when
Plaintiff retained Skolnick & Schiff as replacement
counsel. Id. If 45.
Plaintiff James contends that there has been no
breach of the duties he undertook in his limited
representation of Zhang. In item 36 of his list of
undisputed material facts, Plaintiff James states:
“James carried out his duties as local counsel as needed.
(Exhibit 9-37-40.)” In his responsive pleading, Plaintiff
Zhang stated: “Dispute: Plaintiff has been updating
Apn. 101

Defendant James the progress of Civ. 13-329. (see
Affidavit 3 e. 3). No communication from Mr. James
before the withdraw (sic) even after Plaintiff had
contacted Mr. James, thus ABA local counsel rule was
violated by Defendants James.” The second averment is
a mere statement. Plaintiffs opposition to the Motion for
Summary Judgment does not contain any evidence in
support of that mere statement that would raise it to the
level of a disputed material fact. The referenced item
“Affidavit 3 e. 3)” is an October 14,2013, email from
Zhang to James. The email itself does not contain any
information that could be viewed as evidence that James
breached any duty of his representation of Zhang.
Moreover, Plaintiff Zhang acknowledged that he
retained Skolnick and Schiff as replacement counsel on
September 18, 2013. Plaintiffs Opposition Statement to
Defendants James’ Undisputed Material Facts

45.

Thus, it is undisputed that Defendant James
representation of Zhang had ended nearly a month

Apn. 102

before the October 14,2013, email. Accordingly, Zhang
has raised no facts which could constitute a breach of
James’ duty under the limited representation that was
agreed to. Accordingly, there is no material fact in
dispute regarding the issue of breach of that duty.
Defendant James is entitled to summary judgment.
DATED this 7th day of November, 2017.

Apn. 103

Additional material
from this filing is
available in the
Clerk's Office.

